No. 20-297
In the

Supreme Court of the United States
________________

TRANS UNION LLC,
v.

Petitioner,

SERGIO L. RAMIREZ,
________________

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
________________
REPLY BRIEF
________________
JULIA B. STRICKLAND
STEPHEN J. NEWMAN
CHRISTINE E. ELLICE
STROOCK &
STROOCK &
LAVAN LLP
2029 Century Park E.
Los Angeles, CA 90067

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MATTHEW D. ROWEN
ANDREW C. LAWRENCE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner
March 19, 2021

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF ............................................................ 1
ARGUMENT ............................................................... 2
I.

Ramirez Failed To Prove That Any Absent
Class Member, Let Alone All, Suffered An
Article III Injury .................................................. 2
A. The Disclosure Claims. ................................ 3
B. The Reasonable-Procedures Claim. ............. 9

II. Ramirez Was Demonstrably Not Typical Of
The Class He Sought To Represent .................. 16
CONCLUSION ......................................................... 24

ii
TABLE OF AUTHORITIES
Cases
Chalkley v. Atl. Coast Line R.R. Co.,
143 S.E. 631 (Va. 1928) ........................................... 6
Clapper v. Amnesty Int’l USA,
568 U.S. 398 (2013)................................................ 13
Cortez v. Trans Union LLC,
617 F.3d 688 (3d Cir. 2010) ................................... 15
Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967).................................................. 8
Frank v. Gaos,
139 S.Ct. 1041 (2019)............................................. 14
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992)................................................ 16
Mack v. Delta Air Lines, Inc.,
639 F.App’x 582 (11th Cir. 2016) ............................ 6
Ostrowe v. Lee,
175 N.E. 505 (N.Y. 1931) ......................................... 6
Spokeo, Inc. v. Robins,
136 S.Ct. 1540 (2016)............................................. 14
Stillmock v. Weis Markets, Inc.,
385 F.App’x 267 (4th Cir. 2010) ............................ 20
Town of Chester v. Laroe Ests., Inc.,
137 S.Ct. 1645 (2017)............................................... 3
Tyson Foods, Inc. v. Bouaphakeo,
136 S.Ct. 1036 (2016)............................................. 19
Uzuegbunam v. Preczewski,
No. 19-968 (U.S. Mar. 8, 2021) .............................. 16
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011).......................................... 17, 18

iii
Warth v. Seldin,
422 U.S. 490 (1975)................................................ 14
Statute and Rule
28 U.S.C. §2072 ........................................................ 19
Fed. R. Civ. P. 23(a) .................................................. 18
Other Authorities
7A Charles A. Wright, Federal Practice
& Procedure (3d ed. 2005) ..................................... 18
Fed. Jud. Ctr., Manual for Complex
Litig. (Fourth) (2004) ............................................. 11
Restatement (Second) of Torts (1977)......................... 6

REPLY BRIEF
The class certified here suffers from at least two
fatal defects. Despite Ramirez’s constant refrain, the
class is not limited to individuals who were falsely
labeled “a terrorist” (or anything else) to third parties.
Instead, it is defined to include 8,185 individuals
whose only shared experience was being mailed their
credit file and summary of rights in two envelopes
rather than one. Labeling that a two-envelopes-notone claim is not to denigrate it, but to describe the only
“injury” shared by the class. That was enough for the
Ninth Circuit, but it is not enough to satisfy Article
III. That alone necessitates decertification, but the
class has another fatal flaw: Ramirez was entirely
atypical of the class. He did not just receive two
envelopes at his home; he was hindered in obtaining
credit at a Nissan dealership, suffered humiliation in
front of family, and canceled a vacation. The jury
heard about all of those indignities, even though they
were entirely atypical of class members, and awarded
thousands of dollars to each and every class member.
That is a legal—not evidentiary—error that
TransUnion repeatedly raised and fully preserved.
Ramirez seeks to defend the decision below by
running away from its reasoning. While the Ninth
Circuit found the risk of injury sufficient to find that
every class member suffered actual injury, Ramirez
relegates that misguided risk-based theory to a
footnote. In its place, he advances a brand-new theory
that never surfaced below. He now claims that every
class member has standing because TransUnion’s own
employees and vendors had access to the credit files in
the course of mailing them to class members’ homes.

2
That novel “internal-publication” theory has no
grounding in the common law or the record. It also
has little to do with the statutory violations, which do
not mandate protocols for working with printers, but
address the disclosure of credit files and the
procedures for assembling credit reports. In short,
Ramirez’s late-breaking theory of Article III injury is
as flawed as the Ninth Circuit theory he abandons.
Ramirez’s efforts to deny the glaring typicality
problem are equally futile. He does not and cannot
deny that his own experiences were atypical in the
extreme. Instead, he insists that as long as the class
shares his legal claims, the atypicality of his injuries
and experiences is irrelevant. But that would render
typicality and commonality duplicative. He then
advances the extreme position that typicality is a oneway ratchet that protects only absent class members,
not defendants. That is plainly wrong. Having a class
representative with unrepresentative injuries and
experiences—whether atypically severe or benign—
denies the basic promise of Rule 23 that class actions
will be representative litigation. That denial is no less
grave when a home-run plaintiff represents a class of
single hitters than when a single-hitter represents a
home-run class. Here, Ramirez’s extreme and atypical
experiences explain the outsized award for each and
every class member and require decertification.
ARGUMENT
I.

Ramirez Failed To Prove That Any Absent
Class Member, Let Alone All, Suffered An
Article III Injury.

Ramirez never denies that each and every class
member must suffer a concrete and particularized

3
Article III injury to collect a monetary award. That
was not the law of the Ninth Circuit when this case
began, which explains some of Ramirez’s tactical
decisions and stipulations. But it is the settled law of
this Court, see Town of Chester v. Laroe Ests., Inc., 137
S.Ct. 1645, 1650 (2017), and Ramirez does not suggest
otherwise. Nor does he meaningfully defend the Ninth
Circuit’s theories that every class member suffered an
Article III injury just because they received all the
disclosures in two envelopes and were at risk of having
an incorrect credit report disseminated. The decision
to abandon those theories is understandable. Simply
receiving all required disclosures in two envelopes
rather than one is neither inherently shocking nor a
concrete injury. And a risk that fails to materialize is
insufficient to support a claim for retrospective
damages and fails to distinguish the class members
from consumers who never requested their credit files.
Ramirez’s newfound “internal publication” theory of
injury is a misfit for the common law, the record, and
his statutory claims.
Thus, Ramirez is left
acknowledging that every class member must suffer a
concrete injury, but without a viable theory as to how
the record here supports such a conclusion.
A. The Disclosure Claims.
The lone thing that unites this misguided class is
that TransUnion sent each member their entire credit
file in two mailings, rather than one, with the second
mailing indicating that the class member’s name was
a “potential match” to someone on the OFAC list. On
behalf of that class, Ramirez brought claims that the
mailings failed to comply with FCRA’s disclosure
provisions—because TransUnion did not send the

4
entire credit file in a single mailing and included a
summary of rights in only the first mailing—and
FCRA’s reasonable-procedures provisions designed to
ensure that credit reports sent to third parties are as
accurate as possible.
The class definition is a better fit for the
disclosure violations, as most of the class never had a
credit report with Name Screen information
disseminated to a third party during the class period.
J.A.48. But the disclosure violations boil down to a
complaint that class members received all the
requisite information in two envelopes rather than
one. The Ninth Circuit held that “inherently shocking
and confusing” and sufficient for Article III.
Pet.App.32 n.10. As Judge McKeown explained, that
holding is indefensible, for “whether any … absent
class member … even opened the letter[] is pure
conjecture.” Pet.App.57. Apparently Ramirez now
agrees, as he makes no effort to defend that holding.
In fact, he never even acknowledges it. Nor does he
defend the Ninth Circuit’s untenable effort to liken
sending the requisite information in the wrong format
to failing to disclose information at all. Pet.App.32
n.10. Ramirez does not so much as cite this Court’s
informational injury cases. 1
The government, by contrast, goes all in on the “informational
injury” analogy. U.S.Br.21-26. But it never confronts the
absence of evidence that class members read the mailings or the
presence of evidence that the non-compliant format actually
increased contact rates. Pet.App.57; J.A.611. Moreover, class
members requested information, not particular formatting, so if
they obtained that information in the wrong format, they suffered
no injury akin to being denied requested information altogether.
Finally, the class necessarily includes individuals who requested
1

5
Instead, Ramirez faults Judge McKeown for
failing to consider a different theory under which the
disclosure violations purportedly “could justify Article
III standing without any showing of confusion or
additional adverse consequences,” Resp.Br.21—
namely, that class members were injured when
TransUnion “published” their credit files “to
employees within TransUnion” and to “vendors” that
“printed and mailed the letters” in the process of
sending consumers their credit files. Resp.Br.29. One
can hardly blame Judge McKeown (or the majority, or
the district court, or the Solicitor General) for not
considering that unlikely theory; this marks the first
time Ramirez has advanced it.
That alone is reason to reject it, for it is far too late
for Ramirez to devise new theories that have no basis
in the record and did not surface until after top-side
amici briefs were filed. Because this theory was never
raised below, Ramirez did not substantiate it or give
TransUnion a chance to submit evidence to refute it.
Ramirez points to a document identifying the
TransUnion employee who processed his credit-file
request, J.A.97, and some snippets of testimony
mentioning third-party vendors, J.A.161-62, 545. But
there is zero evidence that TransUnion’s employees or
vendors read, as opposed to merely processed, the
mailings. Moreover, had Ramirez timely raised this
fanciful theory, TransUnion could have responded
with evidence that the process is largely automated

their credit files for reasons unrelated to the OFAC “potential
match.” They presumably received all the information they
wanted in the first envelope.

6
and its employees and vendors operate under strict
confidentiality obligations. 2
Ramirez disclaims the need to prove that these
“internal publication[s]” caused anyone (let alone
every class member) actual injury, because he says
they amount to defamation per se. Resp.Br.28. But
his analogy suffers from multiple flaws. First, the
general common-law rule is that intra-company
disclosures do not count as publication. See, e.g.,
Chalkley v. Atl. Coast Line R.R. Co., 143 S.E. 631, 63840 (Va. 1928) (collecting English and early American
decisions). And as the use of third-party printing
vendors has become prevalent, courts have concluded
that merely sharing information with them likewise
does not constitute publication. See, e.g., Mack v.
Delta Air Lines, Inc., 639 F.App’x 582, 586 (11th Cir.
2016) (applying Georgia law).
Moreover, even
Ramirez’s authorities require proof that the defendant
actually “brought an idea to the perception of
another,” Restatement (Second) of Torts §559 (1977),
and thus generally require proof that the document
was read, not just processed, see, e.g., Ostrowe v. Lee,
175 N.E. 505, 505-06 (N.Y. 1931) (Cardozo, J.). That
proof is absent here.
Second, none of Ramirez’s authorities involves a
context like this, where the internal publication is part
of a process to provide a recipient with information to
confirm its accuracy or correct it. In that context, the
2 To the extent Ramirez claims that TransUnion “published”
Name Screen information to Accuity, Resp.Br.29, that gets things
backwards. TransUnion communicated with Accuity so that
Accuity could inform TransUnion whether a name was “potential
match” to a name on the OFAC list.

7
possibility of the consumer or an intermediary seeing
some inaccurate information is inherent, not
defamatory per se.
That underscores the broader disconnect between
Ramirez’s newfound “internal-publication” theory and
the disclosure violations: They really have nothing to
do with each other. Nothing in FCRA discourages the
use of third-party vendors to get consumers their
credit files expeditiously. If Ramirez were suing for
the violation of such a hypothetical statutory
restriction, then this theory might have occurred to
him earlier. But the disclosure violations turn on
whether the complete credit file and requisite
summary of rights came in one envelope or two. That
has nothing to do with whether the credit files were
accurate, inaccurate, or processed by a vendor. Thus,
Ramirez’s defamation analogy and internalpublication theory are non-sequiturs when it comes to
the disclosure claims.
Finally, what Ramirez maintains was “published”
was not defamatory in the first place. No matter how
many times he claims that “every class member was
falsely labeled a terrorist,” Resp.Br.24 (capitalization
omitted), that does not make it true. The mailings
sent to class members did not label them either a
terrorist or a potential terrorist, but instead informed
them that their “name” was a “potential match” to a
name on the OFAC list. That information, just like
learning that a court judgment is recorded as
unsatisfied, may be unwelcome and require action, but
it is neither false nor defamatory. To the contrary, the
whole point of the statutory right to request a credit

8
file is to learn of such information and have it
addressed before it is disseminated in a credit report.
No one has ever disputed that each class member
in fact has a first and last name that “exact[ly]
match[es]” the first and last name of someone on the
OFAC list. Pet.App.13. Publishing that information
thus could not constitute defamation for the simple
reason that it is true. See Curtis Publ’g Co. v. Butts,
388 U.S. 130, 151 (1967). And publication of that true
information (which anyone could confirm from the
publicly available OFAC list or by typing a class
member’s name on OFAC’s website, see Petr.Br.41
n.5) certainly is not the equivalent of labeling them a
potential terrorist. Contrary to Ramirez’s claim, the
jury was never asked to “determine” whether “the
message” “TransUnion’s OFAC flags communicated”
“was false.” Resp.Br.25-26. Falsity has nothing to do
with the disclosure claims; even someone on the OFAC
list could complain about not getting a full credit file
and summary of rights in a single mailing.
In the end, Ramirez’s strained analogy to
defamation finds no support in law, logic, or the
record—which likely explains why he never previously
advanced it. The disclosure claims have nothing to do
with whether the information in the credit file was
accurate or inaccurate or whether anyone at
TransUnion or a vendor read the contents. They have
everything to do with whether the information came
in two envelopes or one. That is not to denigrate the
claims; that is just to describe the disclosure claims
Ramirez chose to advance and the only thing all 8,185
class members have in common. Concluding that
simply receiving the requisite information in two

9
envelopes does not give rise to Article III injury does
not second-guess Congress’ decision to provide a cause
of action or statutory damages. After all, most
plaintiffs complaining about a non-compliant
disclosure will have never received their credit file or
summary of rights at all, just as most plaintiffs
complaining about an inaccurate report will complain
about something more than an incorrect zip code. But
when someone seeks to recover tens of millions of
dollars based on the functional equivalent of a
mistaken zip code, standing is lacking whether or not
a printing vendor saw the mistaken zip code.
B. The Reasonable-Procedures Claim.
Ramirez’s effort to prove that all class members
were injured by the reasonable-procedures violation
suffers an even more daunting problem: While all
class members were mailed their credit file, Ramirez
stipulated that, for the vast majority of class members,
TransUnion never disseminated a credit report with
Name Screen information to anyone during the class
period. J.A.48. The Ninth Circuit suggested that
everyone in the class suffered a risk that such a credit
report would be disseminated. Pet.App.26-27. Here
too Ramirez largely abandons the lower-court theory
in favor of his newfound argument that somebody
internally may have seen misleading information.
But, in addition to all the problems discussed above,
that conflates the credit file sent to the consumer on
request and the credit report disseminated to third
parties. As to over 75% of the class, there is no
evidence that any credit report with Name Screen

10
information was seen by anyone internally or
externally. J.A.48. 3
Unable to render that stipulation legally
irrelevant, Ramirez tries to minimize its scope. He
first claims that the stipulation covers less than meets
the eye by suggesting that the phrase “potential credit
grantors” in the stipulation does not preclude
disseminations to “existing creditors, insurance
companies, landlords, credit report reseller, and
employers.” Resp.Br.15-16, 30. That is wrong. The
stipulation was based on TransUnion’s records of the
entire universe of third parties to whom it furnished a
credit report during the class period; “potential credit
grantors” was just the stipulation’s shorthand to
describe that universe. See J.A.238-39. 4
Ramirez next suggests that the stipulation may
be underinclusive because TransUnion failed to keep
relevant records of how often credit reports were
disseminated. Resp.Br.29. Wrong again. TransUnion
told Ramirez exactly how many class members’ credit
reports with Name Screen information were
disseminated to a third party “during the class period
Once again, the government works harder to defend the Ninth
Circuit’s reasoning than Ramirez, but to do so it must invent the
novelty of an “intended dissemination.” U.S.Br.16. That concept
is entirely alien to the common law—no one has ever been injured
or defamed by an “intended” letter that was never sent.
3

Ramirez ominously claims that “subscribers to TransUnion’s
system[] … had instantaneous, on-demand access to the entire
class’s OFAC data.” Resp.Br.16. But all he means by that is that
Name Screen subscribers could (with the consumer’s permission)
submit requests to TransUnion online. As Ramirez stipulated,
that never happened for 6,332 class members during the class
period.
4

11
of January 1, 2011 through July 26, 2011”: 1,853
counting Ramirez. J.A.48. TransUnion could have
provided comparable information for other periods
had Ramirez asked. Ramirez’s problem is not that
there was some recordkeeping gap. His problem is
that TransUnion’s records plainly reveal that the vast
majority of class members never had a report with
Name Screen information disseminated during the
class period. That is why he stipulated to that fact.
That stipulation was not fatal in the Ninth Circuit, but
it is fatal under any fair conception of what Article III
and Rule 23 require.
Seeking
to
blunt
the
force
of
his
stipulation/concession, Ramirez disputes the ordinary
meaning of “class period” and suggests that what
really matters is a much longer 46-month “harm
period” that begins in February 2010 and extends
until December 2013.
Resp.Br.8-9.
There are
multiple problems with that submission, starting with
the reality that words have meaning. The class period
is plainly the time period that defines the class of
individuals who stand to recover damages. That is the
standard definition. See Fed. Jud. Ctr., Manual for
Complex Litig. (Fourth) §21.222 (2004). But there is
no need to speculate about how the parties used and
understood the phrase, because the stipulation itself
refers to the “1,853 consumers” who had a credit
report delivered to a third party “during the class
period of January 1, 2011 through July 26, 2011.”
J.A.48. 5
5 Having deviated from the ordinary meaning of class period,
Ramirez cannot quite settle on what to call it or how long it lasts.
In his brief in opposition, Ramirez described the relevant period

12
Moreover, tacking on another 39 months would
not help Ramirez fill the evidentiary gap, as he
presented no evidence that class members had reports
disseminated during those other periods. 6 Of course,
even if some of the 6,332 had a credit report
disseminated after July 26, 2011, it is not clear why
that would be legally relevant. Ramirez cut off the
class definition at that point for a reason: That is
when TransUnion changed its mailing format and
provided the entire credit file and summary of rights
in a single mailing. 7
In the end, Ramirez is left speculating that class
members’ credit reports “could have been sold or
otherwise disclosed to third parties” especially
because “class members were likely to be close to
making some major purchase” since they requested
their credit files. Resp.Br.30-31 (emphases added).
as extending backwards for two years, BIO.3, 17 n.1, while his
latest brief claims a 46-month period that extends both
backwards and forwards from “the class period of January 1,
2011 through July 26, 2011.” J.A.48.
In fact, TransUnion’s records revealed only 1,853
disseminations from February 2010 to July 2013. See J.A.231,
238-39.
6

Attempting to sow confusion, Ramirez cites the district court’s
rejection of “TransUnion’s proposed instruction” regarding “‘[t]he
relevant time for determining whether TransUnion willfully
violated FCRA.’” Resp.Br.32 (quoting J.A.592). That instruction
obviously had nothing to do with the time frame for determining
whether each class member suffered injury-in-fact. Nor has
TransUnion “waived” any argument about the stipulated class
period. Resp.Br.32. Every time Ramirez has tried to improperly
expand it (including now), TransUnion has countered that the
class period is as Ramirez defined it and the parties stipulated.
See, e.g., Cert.Reply.4; CA9.Reply.9-10.
7

13
That speculation relies on an intuition that is
contradicted by the conceded fact that only 25% of the
class members actually had a report disseminated
during the seven-month class period even though all
requested their files. That low percentage may reflect
that consumers request their files for manifold
reasons, including ones having nothing to with
impending purchases, or that some class members
consummated purchases with sellers who did not
subscribe to the optional Name Screen service.
Whatever the reason, the 25% figure makes clear that
requesting a credit file does not pre-figure the
dissemination of a credit report with Name Screen
information. 8
Even if Ramirez’s speculation were wellgrounded, it would remain speculation, which does not
suffice. Article III requires plaintiffs to prove that
their injury-in-fact has already happened or is
“certainly impending.” Clapper v. Amnesty Int’l USA,
568 U.S. 398, 409-10 (2013). Ramirez insists that
“Clapper does not control” because “TransUnion’s
violation” had “already occurred at the time of the
lawsuit.”
Resp.Br.32-34 (capitalization omitted).
Ramirez may have a point, but not one that helps
prove an injury for over 75% of the class. A plaintiff
who seeks retrospective relief may well need to prove
that his risk of injury was not just real or certainly
impending, but actually materialized. See Petr.Br.39
8 Nor does Ramirez account for the possibility that someone
contemplating a major purchase who requested their credit file
contacted TransUnion and cleared up any OFAC-related issue
before the transaction. After all, the only record evidence shows
that contact rates increased with the two-envelope format.

14
n.4. After all, even if some past practices once posed a
significant risk of harm, if that harm never
materialized, the party who escaped harm generally
cannot show injury-in-fact. Similarly, class members
who were only at risk of having their credit files
disseminated cannot demonstrate injury-in-fact
without proof that the risk materialized. Absent
emotional trauma or other concrete injury, a near miss
is cause for celebration, not for filing suit.
Ramirez seems to think that his retrospective
statutory-damages remedy excuses the need to show
injury-in-fact. But this Court has squarely rejected
the notion that “the violation of a statutory right
automatically satisfies the injury-in-fact requirement
whenever a statute authorizes a person to sue to
vindicate that right.” Frank v. Gaos, 139 S.Ct. 1041,
1046 (2019) (per curiam). That remains true when the
statutory violation involves willful conduct. See
Spokeo, Inc. v. Robins, 136 S.Ct. 1540, 1547-48 (2016).
And this Court has not hesitated to reject efforts to
obtain “retrospective damages,” Resp.Br.34, for a
statutory violation that caused no injury-in-fact. See,
e.g., Warth v. Seldin, 422 U.S. 490, 514-16 (1975).
Ramirez thus must prove not only that FCRA was
violated, but that the violation caused all of his fellow
class members some injury-in-fact. Ninth Circuit
precedent at the time of trial excused Ramirez from
making such a showing, and his belated effort to
conjure up a universal injury from internal
communications and speculation falls far short.
Even assuming (contrary to fact) that all class
members had credit reports with Name Screen
information disseminated, that still would not show

15
that they all suffered injury-in-fact. While Ramirez
inexplicably claims that “TransUnion does not dispute
Article III standing for the 1,853 class members
subject to the stipulation,” Resp.Br.23, TransUnion in
fact made perfectly clear in its opening brief (and
every brief before it) that “Ramirez did not even meet
his burden of proving that the 1,852 absent class
members who did have a credit report with Name
Screen information disseminated to a third party
suffered” a “concrete injury.” Petr.Br.40; see also, e.g.,
Pet.20-21. Despite Ramirez’s repeated refrain, it
simply is not the case that those 1,852 were “labeled
terrorists.” And while Ramirez claims that even a
“potential match” label would suffice for some
businesses to “freak out,” Resp.Br.4, the record is
barren of evidence that any creditor took any adverse
action against any of the 1,852.
Instead, the only evidence Ramirez presented
concerned his own experience and that of the plaintiff
in Cortez v. Trans Union LLC, 617 F.3d 688 (3d Cir.
2010). But their experiences, and even their credit
reports, were outliers.
While Ramirez’s report
(through a glitch in reseller reporting) and Cortez’s
report (based on practices discontinued before the
class period) described their names as a “match,” the
vast majority of reports indicated (truthfully) that the
names were a “potential match.” 9
9 While Ramirez discusses Cortez at length, that case involved
practices that were discontinued before the class period. Cortez
thus underscores that because FCRA authorizes compensatory
and punitive damages, misguided class actions are not necessary
to identify and prompt improvements. Cortez also demonstrates
the dangers of Ramirez’s position: While Cortez’s experiences
were even more atypical and unpleasant than Ramirez’s, under

16
With nothing else left to offer, Ramirez makes the
remarkable argument that standing cannot “turn on
what actually happens at trial.” Resp.Br.40. That is
literally the exact opposite of what this Court has held:
Proving injury-in-fact is the plaintiff’s burden at every
stage of the case, and thus “allegations of injury”
“must be ‘supported adequately by the evidence
adduced at trial.’” Lujan v. Defs. of Wildlife, 504 U.S.
555, 561 (1992). Indeed, mere weeks ago the Court
reiterated that “a plea for compensatory damages
[that] fails at the factfinding stage … can no longer
support jurisdiction.” Uzuegbunam v. Preczewski, No.
19-968, slip op.10 (U.S. Mar. 8, 2021). The trial here
simply confirmed what TransUnion had been saying
all along: There is no classwide injury that ensures
that every class member who is poised to collect
thousands in damages suffered an injury-in-fact. The
trial confirmed that this class should never have been
certified and now must be decertified. The alternative
of allowing class members without Article III injury to
collect damages would be unprecedented and
unconstitutional.
II. Ramirez Was Demonstrably Not Typical Of
The Class He Sought To Represent.
Even if every class member were deemed to
somehow just scrape over the Article III threshold,
Ramirez would still remain an entirely atypical class
representative in contravention of Rule 23(a)(3).
Indeed, Ramirez all but concedes the typicality
violation (at least) twice, first by emphasizing that
the logic of Ramirez’s position, someone like Cortez could have
equally served as a class representative here.

17
“TransUnion’s desk-drawer image clearly did not
apply to Ramirez,” Resp.Br.28, and then by faulting
TransUnion for not trying to mitigate the typicality
problem by limiting Ramirez’s testimony or calling
“other class members who did not have Ramirez’s
particular facts,” Resp.Br.45.
Unable to deny that his injuries and experiences
were radically atypical, Ramirez insists that all that
matters is that he “is identical to all other class
members” “[w]ith respect to the claims” he brought.
Resp.Br.45. In other words, like the Ninth Circuit, he
maintains that typicality is satisfied so long as the
named plaintiff’s “claims are based on the same legal
theory” as the absent class members’ claims.
Resp.Br.45. That is not, and never has been, sufficient
for Rule 23(a)(3). Typicality demands that the class
representative “suffer the same injury as the class
members.” Wal-Mart Stores, Inc. v. Dukes, 564 U.S.
338, 348-49 (2011) (emphasis added). If typicality
required only that the representative press claims
that are common to the class, then it would be
redundant of Rule 23(a)’s other requirements,
Petr.Br.48—a point to which Ramirez tellingly never
responds.
That a class representative’s injuries cannot be
either atypically weak or atypically strong is not some
novel
concept
“invent[ed]”
by
TransUnion.
Resp.Br.42. It is simply the necessary corollary of the
requirement that the class representative have
injuries “typical” of the class he purports to
represent—as the United States recognizes,
U.S.Br.30-31. By “screen[ing] out class actions in
which the legal or factual position of the

18
representatives is markedly different from that of
other members of the class,” 7A Charles A. Wright,
Federal Practice & Procedure §1764 (3d ed. 2005), the
typicality requirement plays a critical role in ensuring
that the representative litigation authorized by Rule
23 is truly representative. The whole point of the
typicality requirement is to ensure that a trial of the
class representative’s claims is a fair proxy for the
individual trials that a class action displaces. If the
class representative is atypically strong or weak, such
that trying his claims presents a distorted picture of
the claims shared by the class, then the fundamental
justification for the class action disappears.
Ramirez acknowledges the important function
typicality can play in protecting absent class
members, but makes the remarkable claim that
typicality is a one-way ratchet that only protects
absent class members from atypically weak
representatives, while providing defendants zero
protection from atypically strong ones. Resp.Br.23.
That suggestion is meritless. No other provision of
Rule 23 works in such a one-sided fashion, and there
is not a shred of authority supporting the claim that
typicality is atypical in this regard. To the contrary,
this Court has emphasized that typicality and
commonality overlap and share similar aims. See
Wal-Mart, 564 U.S. at 349. And it is clear beyond cavil
that commonality protects defendants and absent
class members alike. Converting typicality alone into
an exclusively pro-plaintiff rule would make no sense.
After all, Rule 23 by its terms authorizes both
plaintiff- and defendant-classes. See Fed. R. Civ.
P. 23(a). Moreover, there is a much greater incentive
for the proponent of a plaintiff-class to pick a class

19
representative with an atypically strong case than one
with an atypically weak case. There is no reason why
defendants cannot guard against such efforts to skew
the proceedings, especially when “an incorrect class
certification decision almost inevitably prejudices the
defendant.” Tyson Foods, Inc. v. Bouaphakeo, 136
S.Ct. 1036, 1053 (2016) (Thomas, J., dissenting).
Finally, Ramirez’s one-way ratchet would run afoul of
the Rules Enabling Act, which ensures that the
federal rules do not “abridge, enlarge or modify any
substantive right” of any party. 28 U.S.C. §2072. The
notion that typicality guards against abridging the
rights of absent class members, but is indifferent to
enlarging them at the expense of defendants, is a nonstarter. That Ramirez advances such an anomalous
argument is a testament to the seriousness of his
typicality problem.
Ramirez insists that his atypicality is not
“relevant” because he sought statutory, not actual,
damages. Resp.Br.44. That gets matters backwards.
The temptation to put forward an atypical class
representative is greatest when a statute authorizes a
range of statutory damages and punitive damages.
Unlike a standard damages class, where each member
must ultimately demonstrate the extent of their own
injury to recover, every member of a statutorydamages class will receive the same award. And while
most class members will suffer “harms that are small
or difficult to quantify” (if not non-existent), a class
representative who suffered real injuries but forgoes
his right to seek compensatory damages can present
an atypically sympathetic story that will be “highly
relevant to a jury charged with th[e] task” of assessing
damages for the entire class. Stillmock v. Weis

20
Markets, Inc., 385 F.App’x 267, 277 (4th Cir. 2010)
(Wilkinson, J. concurring); accord U.S.Br.28-29.
Recognizing that distinct risk with statutes that
authorize a range of statutory damages and punitive
damages is not a plea for a “separate typicality rule”
for statutory damages. Resp.Br.46. It is simply a
recognition that the ever-present temptation to pick
an atypical representative is particularly acute in this
context. Accord U.S.Br.28.
Ramirez revives his effort (see BIO.21) to blame
TransUnion for not trying “to bar Ramirez from
testifying or to limit his testimony.” Resp.Br.45. But
that only underscores the typicality problem. Rule 23
does not envision a process where the class forwards
an atypical representative who then cannot testify
truthfully about his actual experiences if the
defendant objects. Such a process would ignore not
only the requirements of Rule 23 but the basic promise
of the Rules Enabling Act that the federal rules do not
abridge substantive rights. That is exactly what
would result from making evidence that would be
unassailably relevant in Ramirez’s individual action,
accord U.S.Br.30-31, somehow out-of-bounds in a class
action because it accentuates Ramirez’s atypicality.
Ramirez should not have to trim the sails on his own
compelling testimony to make his story less truthful
but more typical. Instead, a class representative
whose experiences are actually typical should testify
about his typical experiences in full.
Ramirez also seeks to blame TransUnion for not
calling absent class members to testify in an effort to
give the jury a better sense of the experiences of a
typical class member. But that once again ignores

21
that it is the plaintiff’s burden to identify a typical
class representative. And when (unlike here) that
actually happens, there is generally no need to
supplement the class representative’s testimony with
the experiences of more typical class members.
Forcing the defendant to call absent class members (or
serve discovery on them) not only would place an
impractical burden on the defendant—the absent
class members are represented by class counsel, after
all—but would rob class actions of much of their
efficiencies. Put simply, Rule 23 obviates the need for
the class representative to trim his testimony or for
absent class members to testify by requiring the
proponent of class certification to put forward a truly
typical class representative.
That requirement provides a complete answer to
Ramirez’s mistaken suggestion that TransUnion did
not preserve its typicality objection. TransUnion
raised its typicality objection early and often. See, e.g.,
J.A.511-13, 636, 683-86; see also J.A.275-76. There is
no dispute about that and no need for a remand to
ascertain what the record makes clear. Having had its
timely objections overruled, TransUnion was under no
obligation to try to fix class counsel’s selection of an
atypical representative by limiting Ramirez’s
testimony or calling more typical class members.
TransUnion did not try to limit Ramirez’s testimony
to some kind of least-common-denominator version of
what he actually experienced because that is not how
class actions are supposed to work. And TransUnion
did not call absent class members because doing so is
not its burden. It was class counsel’s burden to put
forward a typical representative. When it put forward

22
Ramirez, with his highly atypical story, TransUnion
objected. That is all Rule 23 requires. 10
Ramirez makes the puzzling claim that
TransUnion’s position “cannot be reconciled with Rule
23(c)(1)(A)’s mandate that the class certification
decision be made ‘at an early practicable time.’”
Resp.Br.47. In fact, TransUnion’s position is and
always has been that this class never should have been
certified, for it was obvious from the start that
Ramirez was atypical of the class—as TransUnion
explained in objecting to certification long before this
case went to trial. J.A.511-13. What happened at trial
only confirmed the wisdom of that early and consistent
objection.
Ramirez tries to downplay the extreme prejudice
of this typicality error by speculating that the jury
awarded damages at the high end of the statutory
range because it was asked to issue a single award
covering three statutory violations—something he yet
again inexplicably tries to chalk up to some “strategy”
on TransUnion’s part. 11 Resp.Br.48. That claim

Ramirez is even further off-base in claiming that TransUnion
“waived” its oft-raised typicality objection by failing “to propose a
verdict form that allowed the jury to differentiate” between
Ramirez and his fellow class members when awarding statutory
damages. Resp.Br.46. TransUnion did propose a verdict form
that would have allowed the jury to do exactly that (only to have
it rejected in favor of Ramirez’s undifferentiated proposal), see
Pet.App.72-73; Dist.Ct.Dkt.261, but that still would not have
fixed the more fundamental typicality problem.
10

11 In reality, Ramirez himself proposed that the jury make only
a single award “of not less than $100 and not more than $1,000”
per class member, see Dist.Ct.Dkt.253 at 2; J.A.691—presumably

23
strains credulity. Ramirez did not urge the jury to
calibrate its award to the number of violations it
found. He urged it to award Ramirez “the maximum
penalty” regardless of whether it found one violation,
two, or three. J.A.628. And after imploring the jury
to “[l]ook what happened to Mr. Ramirez” and
recounting his personal experience, he closed by
reiterating that (contrary to the verdict form
TransUnion had requested, see Dist.Ct.Dkt.261) “the
law requires” “that your verdict must be the same for
every class member.” J.A.621-28. Efforts to capitalize
on an atypically sympathetic class representative do
not get more transparent than that.
In short, that “the trial focused on Ramirez and
his unique circumstances” to the exclusion of virtually
anything else, Pet.App.53 (McKeown, J.), was not the
product of some tactical choice by TransUnion. It was
the inevitable result of the district court’s erroneous
decision to allow a radically atypical plaintiff who
suffered public humiliation and canceled his vacation
plans to represent a class of thousands, most of whom
simply received their credit files in a non-compliant
format. No amount of revisionist history can lay the
blame for that violation of Article III and Rule 23(a) at
TransUnion’s feet.

because FCRA limits statutory damages to “not more than
$1,000” per “consumer,” not per violation, 15 U.S.C. §1681n(a).

24
CONCLUSION
For the foregoing reasons, the Court should
reverse.
Respectfully submitted,
JULIA B. STRICKLAND
STEPHEN J. NEWMAN
CHRISTINE E. ELLICE
STROOCK &
STROOCK &
LAVAN LLP
2029 Century Park E.
Los Angeles, CA 90067

PAUL D. CLEMENT
Counsel of Record
ERIN E. MURPHY
MATTHEW D. ROWEN
ANDREW C. LAWRENCE
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

March 19, 2021

